CREDIT CARD INITIAL
DISCLOSURE

Important Disclosure Information
Travis Credit Union Credit Cards

Interest Rates and Interest Charges

Annual
Percentage
Rate
(APR)* for
Purchases

Platinum Visa

Share-Secured1/ Credit Builder Visa

11.24% to 20.24%

18.65%

When you open your account, based on your
creditworthiness. After that, your APR will vary with the
market based on the Prime Rate.

When you open your account, based on your
creditworthiness. After that, your APR will vary with the
market based on the Prime Rate.

APR* for
Cash
Advances
and Balance
Transfers

13.24% to 22.24%

20.65%

This APR will vary with the market based on the Prime
Rate.

This APR will vary with the market based on the Prime Rate.

25.00%

25.00%

Penalty
APR**

How to Avoid Paying Interest on Purchases

You have 25 days to repay your balance in full for purchases before
a finance change will be imposed.

Minimum Finance Charge

None 2

Fees
MyTravis Rewards Annual Fee

$0.00

3

Platinum Visa Cards Only

Transaction Fees
Balance Transfer

2% of the amount of each transfer not to exceed $25.00

Cash Advance

2% of the amount of each cash advance or $10.00, whichever is greater

Foreign Transaction

None 4

Penalty Fees
Late Payment

$15.00 5

Returned Payment

$15.00

Card Replacement Fee
For Credit Card Tips from the
Consumer Financial Protection
Bureau

$5.00
To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

CCDISC 09/20
Page 1 of 3

*Variable Rates: The Annual Percentage Rate (APR) may increase or decrease if the highest rate of interest identified
as the Prime Rate increases or decreases. The APR will be equal to the Prime Rate plus a margin and will based on your
credit worthiness at the time you open your account. The interest rate can change on the first day of each billing cycle
following a change in the Prime Rate. Any increase will lengthen the time it takes to pay off your loan.
Prime Rate: Variable APRs are based on the 3.25% Prime Rate as of 09/14/2020. Maximum APR 25.00%.
Details About Interest Rates and
Interest Calculations for Credit
Card Products
Platinum Purchases
Platinum Cash Advances/Balance
Transfers
Credit Builder/Share Secured
Purchases
Credit Builder/Share Secured Cash
Advances/Balance Transfers

Index

Margin

Corresponding APR

3.25%
3.25%

7.99% to 16.99%
9.99% to 18.99%

11.24% to 20.24%
13.24% to 22.24%

3.25%

15.40%

18.65%

3.25%

17.40%

20.65%

How We Will Calculate Your Balance: We use the average daily principle balance method (including new transactions).
See the Credit Card Cardholder Agreement and Disclosure Statement for details.
**Penalty APR: An interest rate adjustment will occur when your account is 60 days or more past due. If your account is
60 days past due, the interest rate for existing and new balances will be increased to an APR of 25.00%. The interest rate
adjustment will terminate if you make the required minimum payments for six consecutive months.
When you respond to this credit card offer or sign an application for a credit card with Travis Credit Union, you authorize
Travis Credit Union to independently verify the information you provided by any lawful means, to exchange credit
information about you with others; including obtaining information about you from credit or consumer information bureaus
and agree that Travis Credit Union may at its discretion, from time to time, make inquiries regarding your credit standing
through consumer credit bureaus and agree to provide financial statements or other evidence to support your income if
requested.
Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his
or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable
to the credit transaction or account: the costs associated with credit insurance premiums; fees for ancillary
products sold in connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account). If at any time you are no longer considered to be a covered
borrower per the Military Lending Act, these coverages will cease. To access the oral disclosure for your Military
Lending Act coverages, please call (800) 877-8328 (Press 6 for loans, Option 3 for the disclosure).

 MLA Covered Borrower

 MLA Covered Co-Borrower

If the account is opened, you will receive a Credit Card Cardholder Agreement and Disclosure Statement with your card.
By using the card you agree to the terms of the Credit Card Cardholder Agreement and Disclosure Statement.
1. If applying for a share-secured Credit Card, you may be required to pledge up to 100% of the limit approved in a
regular share account based upon credit worthiness.
2. Although there is no minimum finance charge, there is a minimum payment amount. The minimum monthly
payment is the greater of 2% of the balance or $20.00. At least one minimum payment must be made each
calendar month if a loan balance exists.
3. Platinum Visa cardholders will be automatically enrolled in MyTravis Rewards.
4. Purchases and cash advances made in foreign currencies will be billed in U.S. dollars. The conversion rate in
U.S. dollars will be either at the government mandated rate or a wholesale currency market rate determined by
CCDISC 09/20
Page 2 of 3

Visa® for the processing cycle in which the transaction is processed. The currency conversion rate used by
Visa® on the processing date may differ from the rate that would have been used on the purchase date or
cardholder statement posting date. The Credit Union has no control over the conversion rate.
5. If the minimum monthly payment is not received within 15 days of the due date, a late charge of $15.00 will be
charged to the account. If the minimum payment is less than $15, the late fee will be no more than the amount of
the minimum payment.
This information about credit cards is accurate as of September 14, 2020 and may change after that date. For current
information, ask your Member Service Representative or call (707) 449-4000 or (800) 877-8328. Credit Card accounts
are exclusively for Travis Credit Union members.
This disclosure supplements the Credit Card Agreement and Disclosure Statement. Please keep this disclosure for your
records.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Credit Card Cardholder Agreement and Disclosure.

CCDISC 09/20
Page 3 of 3

CREDIT CARD CARDHOLDER AGREEMENT
AND DISCLOSURE STATEMENT

The following terms and conditions governing credit cards constitute a mutually protective service
agreement (the "Agreement") between you and Travis Credit Union (The “Credit Union.”) (Please read
the entire Agreement.) You have applied for a Visa® Credit Card with Travis Credit Union. If issued, the
extension of a Credit Card to you under this Agreement will be subject to the following terms, which
may be amended from time to time.
Having applied for this card, you have certified that all the information you provided was true and
correct. You understand that it is illegal to provide false information in order to obtain the card. By
using the card you affirm that you authorized Travis Credit Union to obtain your address from DMV and
waived address confidentiality rights that you may have under California Vehicle Code §1808.21 and
comparable laws of other states. You further authorize the Credit Union to investigate your credit
standing when opening, renewing, or reviewing your Credit Card Account.

Changes in Terms
The Credit Union can change the terms of this Agreement, including the Annual Percentage Rate, by
giving you written notice 45 days prior to the effective date of the change. If you do not want the
changes to apply to your credit card account, you must notify us in writing within 15 days after the date
of your billing statement or within 15 days of the date a separate change of terms notice was mailed,
stating your non-acceptance of the terms and indicating your name, address and account number. Mail
it to Travis Credit Union, P.O. Box 2069, Vacaville, CA 95696. If you notify us, your credit card will be
cancelled, but you can continue to pay off the balance under the old terms. If you do not notify us or if
you continue to use your card, the new terms, or new Annual Percentage Rate (APR), will apply to the
balance of your loan. Your notice of termination will not affect any unprocessed transactions that
occurred prior to your written notice of termination, for which you will be obligated.
Under certain circumstances the credit union can terminate your account without notice. Please refer
to the Credit Limit, Default-Lien-Acceleration and Termination sections of this agreement for additional
information.

Governing law
This Agreement is made in California and shall be governed by the laws of the State of California to the
extent that California Law is not inconsistent with controlling Federal Law. California’s “Choice of Law
Rules” will not be applied if they would result in the application of non-California law. You agree by use
of this Service that you do hereby submit to the jurisdiction of the courts of California regarding Travis
Credit Union and that any conflict brought or filed with respect to use of this Service or concerning this
Agreement shall be brought in a court of competent jurisdiction in Solano County, California.

CCHDISC 09/20

Page 1 of 11

Using your Card
1. You consent to the terms of this Agreement by using your credit card. You continue to be bound for
all transactions resulting from the use of the card until you have given us written notice of
termination of your credit card account (the “account”). This termination will not affect any
unprocessed transactions that occurred prior to your written notice of termination, for which you
will be obligated.
2. If the Credit Union approves your application, each applicant will be issued the credit card applied
for and will be able to use the account. Each applicant will also be liable to repay the account under
the terms of this Agreement. Co-signers who do not have access to the account, are still liable for
the loan, and will acknowledge receipt of a copy of this Agreement as well as the separate “Notice of
Co-signer.”
3. If you remove your name from a joint account on which a credit card was issued, you are still
obligated for any transaction that took place prior to you removing your name.
4. You are also obligated to repay any charges resulting from the use of the card by another person
with your permission, whether or not the person stays within the limits set by you.
5. Any persons who use the card are also obligated to repay the Credit Union for all charges incurred
because of their use of the card.
6. You remain bound to pay for charges under this Agreement even though another person has been
directed to pay the debt by agreement or court order such as a divorce decree.
7. To make a purchase or get a cash advance, present the card to a participating Credit Card plan
merchant, to us, or to another financial institution and; sign the sales or cash advance draft
imprinted with your card number. Keep a copy of the draft to verify your monthly statement.
8. Your Credit Card may also access designated Automatic Teller Machines (ATMs) showing the Credit
Card logo. The use of your Credit Card for ATM access is subject to additional ATM disclosure terms
included in this disclosure.
9. Foreign Transactions and Charges. Purchases and cash advances made in foreign currencies will be
billed in U.S. dollars. The conversion rate in U.S. dollars will be either at the government mandated
rate or a wholesale currency market rate determined by Visa® for the processing cycle in which the
transaction is processed.
The currency conversion rate used by Visa® on the processing date may differ from the rate that
would have been used on the purchase date or cardholder statement posting date. The Credit Union
has no control over the conversion rate. In addition to the conversion rate selected by Visa®, a
separate Visa International Service Assessment Fee is charged to the Credit Union and will be
charged to your account in the amount disclosed on the Credit Card Initial Disclosure.
10. Unlawful Activity. You agree not to use any financial service provided by Travis Credit Union,
including without limitation any credit cards, debit cards, loan transactions, or share checking or
savings accounts, for any illegal or unlawful purpose. Any illegal or unlawful use of Travis Credit
Union financial services by you may, at the option of the Credit Union, be deemed an event of
CCHDISC 09/20

Page 2 of 11

default or breach of contract with respect to the service(s) in question and your use of such service(s)
may be terminated or restricted. You and any co-signers or joint accountholders agree to defend,
indemnify and hold Travis Credit Union harmless from and against any and all claims, damages, lawsuits,
liabilities, losses, injuries and costs, including attorney’s fees, arising out of, caused by, or related to your
unlawful or illegal use of Travis Credit Union financial services.
Internet gambling may be illegal or unlawful in the state, country or other jurisdiction in which you are
located or in which you perform a transaction or use a Travis Credit Union financial service, including a
debit card, or Visa® credit card. Display of a Visa®, or other payment logo by an online merchant does
not mean that Internet gambling transactions are lawful in the jurisdiction(s) in which you may be
located.
Illegal or unlawful use of Travis Credit Union financial services by you may also result in the suspension
or termination of your Travis Credit Union membership.
11. Transaction Limitations. For security reasons there are limits on the number and dollar amount of
transactions, transfers or withdrawals you can make with your card each month. This includes
credit, point-of-sale, ATM and other electronic transactions or transfers conducted using your card.
12. Mobile Wallet. Third Party or Mobile Devices. Smart phones, tablets, and other electronic devices
allow you to store or electronically present your Account information, and engage in credit transactions
without presenting your Card (such as through a mobile wallet). Any purchases or transactions made
through such third party or mobile devices are covered by this Agreement and subject to its terms and
conditions. We do not control third party or mobile devices and cannot guarantee the performance of
any such device or any third party. You agree to protect the security of the device the same as you
would your Card.

Credit Limit
1. If your application is accepted, the Credit Union will establish a credit limit for you. The amount will
be based on many factors including your ability to pay and your creditworthiness.
2. Your account will be an open-end or revolving credit account as long as your account is not in
default or terminated. This means that you can borrow the full amount of the credit limit, repay the
principal in full or part and borrow again up to your maximum credit limit as long as you continue to
be creditworthy.
3. The Credit Union has the right to terminate the account without advance notice. It will notify you in
writing of the reason for any such denial of credit. Among the reasons for refusing to advance you
credit are an adverse change in your credit worthiness, such as not making any or the minimum
required loan payments, a change in your employment status, your insolvency, bankruptcy, or
death.
4. Your credit limit will be reviewed periodically and you may be requested to provide current
information. Your borrowing limit may be increased or decreased at any time. You can apply for an
increase in your credit limit at any time.

CCHDISC 09/20

Page 3 of 11

5. Payments received will be applied against the amount owed, and your loan balance reduced
accordingly. However, in certain instances, the payment amount may not be immediately applied to
the available credit on your account.

Repayment Terms
1. You promise to pay to the Credit Union at the address designated on your statement all sums
advanced to you under this agreement at any time plus a Finance Charge, if applicable.
2. The minimum required monthly payment is the greater of 2% of the new balance shown on your
current statement or $20.00, plus any past due minimum required payment and any amount that
exceeds your approved credit limit. At least one minimum payment must be made each calendar
month if a loan balance exists.
3. The Credit Union will make available monthly statements of your Credit Card account which will
advise you of the status of your account and other information required by law.
4. Any advance, together with your current outstanding balance, which for any reason is in excess of
your authorized credit limit, must be reduced to the authorized limit by a single lump sum payment
by you, upon written notification by the Credit Union.
5. The balance owed by you, including accrued Finance Charges on the unpaid balance, may be repaid
in full at any time without prepayment penalty.
6. If the payment exceeds the outstanding balance of your credit card account, the amount over the
credit limit will be transferred to your regular savings account. In certain instances, a hold may be
placed on the portion credited to your savings account and may not be available for immediate
withdrawal. If this occurs, a notice will be provided, advising you of the amount held, the date
available and the reason for the hold.
7. Payments may be made by mail, electronically, by phone (See How to Contact Us section), or in
person at any of our branches to an employee of the Credit Union.
8. A fee will not be charged for payment by mail, electronic transfer, telephone or other means unless
it is for an expedited payment.

Finance Charges
1. The Finance Charge is the amount of money that you pay for the money you borrow. The Finance
Charge is calculated using the rates reflected on the Annual Percentage Rate (APR) disclosure which
you received and which is incorporated herein by reference.
2. The Finance Charge is calculated by applying the Monthly Periodic Rate to the Average Daily Balance
for cash advances and the Average Daily Balance for purchases. The Average Daily Balances for cash
advances and for purchases are shown separately on your statement. The APR for cash advances,
balance transfers or purchases may not be the same, and may result in different finance charges
depending on the transaction.
3. The Average Daily Balance is calculated by adding purchases and cash advances made during the
statement period. If you had a previous balance as of the beginning of the statement period, it is
CCHDISC 09/20

Page 4 of 11

reduced by any payments and credits and increased by cash advances, non-cash transactions and
debit adjustments made during the statement period. The daily principal balances are totaled and
divided by the number of days in the statement period to arrive at the Average Daily Balance.
4. The Finance Charge on cash advances runs from the date of each transaction. Finance Charges on
non-cash transactions accrue from the date of posting to your account. However, if you pay your
new balance in full within 25 days of your statement closing date, current Finance Charges on noncash transactions are waived. Otherwise, a Finance Charge will be imposed on the unpaid average
daily balance on non-cash transactions from the previous statement closing date until the payment
date. Cash advances include credit withdrawals at ATMs, online transfers, over the counter cash
advances, and through checking account overdraft protection if that option has been selected.
5. The fee for each cash advance obtained on your Credit Card account will be 2% of the amount of
each cash advance or $10, whichever is greater. A cash advance charge is included as a Finance
Charge under federal requirements.
6. The Finance Charge continues to accrue until the date of payment on cash advances or purchases
carried forward from the previous statement.
7. No Finance Charges will be imposed for any purchases paid off within 25 days of the closing date of
the billing cycle. No Finance Charges will be imposed during the current billing cycle for repaid cash
advances posted to your account during previous billing cycles.
8. A partial payment will not reduce the current month’s Finance Charge. The Finance Charge
continues to accrue on the same basis on the total unpaid principal balance.
9. Generally, we will apply your minimum payment first to lower APR balances (such as Purchases)
before balances with higher APRs (such as Cash Advances). Payments made in excess of the
minimum payment will generally be applied to the balances with the higher APRs first before
balances with lower APRs.
10. The APR is a variable rate and may increase or decrease based on the U.S. Prime Rate as published in
the Money Rates section of The Wall Street Journal. Refer to the Credit Card Initial Disclosure for
details.
11. An interest adjustment will occur when your account is 60 days or more past due. Refer to the Credit
Card Initial Disclosure for details.

Other Charges
Late Charges. If the minimum monthly payment is not received at the address shown on your
statement within 15 days of due date, a late charge of $15.00 will be charged to the account. If the
minimum payment is less than $15, the late fee will be no more than the amount of the minimum
payment.
Returned Items. Each time a check or other transfer processed by the Credit Union as a payment on
your account is returned unpaid, an additional charge of $15.00 will be imposed.
Replacement Card. A charge of $5.00 will be imposed for each replacement card.
CCHDISC 09/20

Page 5 of 11

Balance Transfer Fee. The fee will be 2% of the amount transferred, not to exceed $25.00

Honest Dealing
You will promptly notify the Credit Union of any information that affects your creditworthiness or ability
to pay off the loan including but not limited to a change in address or employment. You will not apply to
increase the credit balance if you have reason to believe that you will be unable to make the scheduled
payments.

Additional Terms Applicable to Co-Signers
As a co-signer you understand that you are obligated to repay any amount borrowed under this
agreement up to the credit limit established by the Credit Union for the applicant to the same extent as
the applicant. The Credit Union can proceed against you if the payments are delinquent even before it
seeks to recover from the borrower. The Credit Union will give you notice of any action it takes that
could have an adverse effect on your credit standing. Any extension of the payoff or partial settlement
with the borrower will not waive any of the Credit Union’s rights against you as the co-signer. You can
stop being obligated for future loan advances only by writing to the Credit Union to that effect. But you
will still be jointly and individually liable with the borrower for the repayment of the existing loan
according to the terms of the Agreement.

Security Interests – Applies to Secured Visa Only
The Credit Union may require you to pledge a specified amount on deposit in one or more of your Credit
Union share accounts as security for repayment of all amounts loaned to you under the terms of this
Agreement, and by using the credit card you understand and agree that if you secure your credit card
loan by specifically pledging an amount on deposit, you cannot withdraw the funds pledged from the
account as long as the pledge is in effect. If you default in your payments under the terms of this
agreement, the Credit Union has the right to apply the amount specifically pledged to pay off the Credit
Card account in full or in part. The amount pledged and the account will be shown on a separate
security agreement.

Default – Lien - Acceleration
If you are in default on your payments or; your creditworthiness declines or; you become insolvent or;
you file for bankruptcy; or die, or any attachment or garnishment proceeding are initiated against you
or your property, you will no longer have an active Credit Card account. The Credit Union will, at its
option, terminate your account and declare the entire unpaid balance of the account due and payable
immediately without notice. Even if the Credit Union accepts a late payment or partial payment, it is not
waiving its right to accelerate the payment of the account and declare the entire unpaid balance due.

Communications
You agree the Credit Union may call or send text messages to you regarding this account or any other
account you have at the Credit Union now or in the future at any telephone number that you provide to
the Credit Union or that the Credit Union obtains from other sources. (References to "the Credit Union"
in this section include, but are not limited to, employees of and third parties acting on behalf of the
Credit Union.) This authorization includes calls and text messages made to cell phones and wireless
devices using an automated dialing system or prerecorded message. You represent that you have not
provided, and you promise that you will not provide, the Credit Union with any telephone number
CCHDISC 09/20

Page 6 of 11

assigned to a cellular device unless that number is assigned to an account in your name at a wireless
carrier unless you have notified the Credit Union otherwise in writing, and that you will notify us in
writing within three business days after any such number stops being assigned to you. Because the
Credit Union is extending products, services and/or concessions to you in reliance on those promises
and agreements, you waive the right to revoke them in whole or in part.

Collection Costs
You agree to pay all reasonable cost of collection incurred by the Credit Union before and after suit is
filed. If we have to take legal action to collect what you owe us, you agree to pay our reasonable
attorney’s fees and court costs in addition to other amounts you owe us, whether the legal action we
take is a collection lawsuit, a bankruptcy proceeding, an appeal, an action to collect a judgement we
have against you, or another type of proceeding.

Termination
We can terminate your Credit Card account without prior notice, reduce or cancel all credit available on
the account, refuse to make further advances, and revoke all cards issued on the account for any breach
of this Agreement. Termination of the account does not relieve you of the obligation to repay the full
account balance due under this Agreement.

MyTravis Rewards – Does not apply to Credit Builder or Share Secured
All Visa cardholders will be automatically enrolled in MyTravis Rewards. For terms and conditions, see
the MyTravis Rewards disclosure.

Other Rights
1. Unauthorized use of lost or stolen cards. You may be liable for the unauthorized use of any card
issued to you after its loss or theft. We may increase the limit of your liability if we reasonably
determine, based on substantial evidence, that you were negligent or fraudulent in the handling of
your account or card, or participated in the transaction.
Notify us of the loss or theft at our 24-hour telephone number (800) 787-9908 and call the regular
Credit Union office as well at (707) 449-4000 or (800) 877-8328. Any written inquiries should be sent
to Travis Credit Union, P.O. Box 2069, Vacaville, CA 95696-2069. You agree to notify us at once of
the loss or theft and to cooperate in our determination of the circumstances.
You give your consent to the Credit Union to release any information regarding your card and/or
card account to any local, state, and/or federal law enforcement agency so that the information can,
if necessary, be used in the investigation and/or prosecution of any person(s) who may be
responsible for fraud involving your card and/or card account.
2. Credits. If your credits and payments exceed what you owe us, we will transfer any amount over
your credit limit to your regular savings account. Consistent with the law, we will promptly credit
your payments so you do not incur unnecessary Finance Charges; however, we reserve the right to
hold refunds until final collection of items you present for payment on your Credit Card account.

CCHDISC 09/20

Page 7 of 11

General Terms
The terms of this agreement must be read together as a part of the whole agreement. When the
singular is used the plural is implied if there is more than one signer. If any part of this agreement is
found to be invalid, the other parts shall remain in effect. Applicable Federal and State of California laws
shall govern the interpretation of this agreement.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities under the Fair
Credit Billing Act.

State and Local Law
The following summary of your rights under Federal law does not cover all rights you may have under
State and local law. If under State or local law, you have a longer period of time in which to send an
inquiry to the Credit Union concerning your statement, reliance on any such longer time period may
result in you losing your important rights which could be preserved by acting more promptly under
Federal law. State or local provisions, if any, only become operative upon the expiration of the time
period provided by Federal Regulation Z for submitting a proper written notification of an error.

Notify us in case of errors or questions about your billing statement or electronic transfers
If you think your statement is wrong, or if you need more information about a transaction on your
statement, write us at the address listed on your statement. Write to us as soon as possible. We must
hear from you no later than 60 days after we sent you the first statement on which the error or problem
appeared. You can telephone us at (707) 449-4000, but doing so will not preserve your rights. We will
request that you send us your questions in writing.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. Describe the error and explain, if you can, why you believe there is an error.
If you need more information, describe the item you are not sure about.

How to stop a payment of a pre-authorized electronic fund transfer
If you have authorized us to make your credit card payment automatically from your share or Credit
Union checking account, you can stop the payment on any amount you think is wrong. To stop the
payment you must contact us within three business days before the automatic payment is scheduled to
occur. If you telephone your request, we may require you to confirm your oral request in writing. If you
fail to do so, your oral request will terminate 14 days after it is made. If you order us to stop one of
these payments 3 business days or more before the transfer is scheduled, and we do not do so, we will
be liable for your losses or damages.
Your rights and our responsibilities after we receive your written notice
We must acknowledge your letter within 30 days, unless we have corrected the error by then. Within
90 days, we must either correct the error or explain why we believe the statement was correct.

CCHDISC 09/20

Page 8 of 11

After we receive your letter, we cannot try to collect any amount you question, or report you as
delinquent. We can continue to bill you for the amount you question, including Finance Charges, and we
can apply any unpaid amount against your credit limit. You do not have to pay any questioned amount
while we are investigating, but you are still obligated to pay the parts of your statement that are not in
question.
If we find that we made a mistake on your statement, you will not have to pay any Finance Charges
related to any questioned amount. If we didn't make a mistake, you may have to pay Finance Charges,
and you will have to make up any missed payments on the questioned amount. In either case, we will
send you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent. However, if our
explanation does not satisfy you and you write to us within ten days telling us that you still refuse to
pay, we must tell anyone we report you to that you have a question about your statement. And we
must tell you the name of anyone we reported you to. We must tell anyone we report you to that the
matter has been settled between us when it finally is.
If we don't follow these rules, we can't collect the first $50.00 of the questioned amount, even if your
statement was correct.

Special rule for credit card purchases
If you have a problem with the quality of property or services that you purchased with a credit card, and
you have tried in good faith to correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the property or services. There are two limitations on this right:
1. You must have made the purchase in your home state or, if not within your home state, within 100
miles of your current mailing address; and
2. The purchase price must have been more than $50.00. These limitations do not apply if we own or
operate the merchant, or if we mailed you the advertisement for the property or services.

Notice to California residents
1. Under California law our right to recover credit extended to you for purchases is subject to any
defenses that you have against the seller if:
a. The purchase price in question exceeded $50.00;
b. The purchase was made in California;
c. You made a written demand of the retailer and made a good faith attempt to get
satisfaction of your complaint.
d. You notified us in writing of the name of the seller, the date of purchase, the price paid, the
goods or services purchased, the nature of your defense, the actions which you took to obtain
satisfaction from the seller.
2. The amount to which the defense applies is limited to the amount outstanding on the purchase as
well as late charges and Finance Charges at the time the written demand is received by us.
3. This remedy is the only one you have against us. Your rights are limited to those circumstances
outlined in California Civil Code 1747.90. Purchases with cash or check are not included in this
section even though you used your Credit Card to validate your credit.
4. We cannot penalize you by either giving out unfavorable credit information about you or canceling
or refusing to renew your Credit Card account solely because you obtained relief under the
remedies you have for correcting billing errors.

CCHDISC 09/20

Page 9 of 11

ATM DISCLOSURE
This part of the disclosure applies to use of your Credit Card to obtain cash advances on your Credit Card
account at Automated Teller Machines (ATM). Please refer to your ATM Card disclosure for disclosures
applicable to ATM use for purposes other than obtaining cash advances on Credit Card accounts.
You may use your Card and Personal Identification Number (PIN) to obtain Cash Advances at any
Automatic Teller Machine ("ATM") that accepts your Card. Your PIN is confidential and should not be
disclosed to anyone. You agree not to write your PIN on your Card, you will not keep your Card and PIN
together, and you will not provide your PIN to anyone who is not an authorized user.
Advances at authorized ATM's are limited to a total of $500.00 during any 24-hour period. This amount
may be lower based on available credit balance or individual machine cash limitations.

Documentation of Transactions
ATM cash advances using a credit card will be shown on your monthly statement mailed to your address
of record. For this reason, always keep the Credit Union informed if your mailing address changes. You
will have the option to receive a receipt each time you use your card. Always compare the receipt
against your account record and statement.

Credit Union Liability
Travis Credit Union shall be held liable for damages caused in the case of a failure on our part. However,
if the action or failure to act was not intentional and resulted from a good faith error, even though we
maintain procedures reasonably adapted to prevent such error, we shall be liable for only actual
damages.
There are some exceptions to the extent of Travis Credit Union's liability. We will not be liable, for
instance:
1. If, through no fault of ours, you do not have enough money in your account to complete the
electronic transaction and the transaction would go over the authorized credit limit.
2. If the funds in your account are subject to legal process or other encumbrances restricting such
transfer.
3. If the ATM where you are making the transfer does not have enough cash.
4. If the terminal was not working properly and you knew about the breakdown when you started
the transfer.
5. If circumstances beyond our control (such as fire, flood, earthquake, labor disputes, power or
computer failure) prevent the electronic transaction from being completed, despite reasonable
precautions that we have taken.
6. If there are other lawful exceptions established by the Credit Union and you are given proper
advance notice of them.
7. In no event will the Credit Union be liable for consequential indirect costs or damages.

CCHDISC 09/20

Page 10 of 11

HOW TO CONTACT US
Call (707) 449-4000 or (800) 877-8328 8:00 a.m. to 7:00 p.m., Monday through Friday or 9:00 a.m. to
5:00 p.m. on Saturdays, excluding holidays (Pacific Time)
You may also visit any Credit Union office or write us at the address below:
Travis Credit Union
Attn: Card Services Department
P.O. Box 2069
Vacaville, CA 95696-2069

CCHDISC 09/20

Page 11 of 11

